JUNE 22, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




AUDIT OF NASA GRANTS AWARDED TO THE ALABAMA
SPACE SCIENCE EXHIBIT COMMISSION’S U.S. SPACE
             AND ROCKET CENTER




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-016 (ASSIGNMENT NO. A-12-003-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

C.F.R        Code of Federal Regulations
FY           Fiscal Year
GIC          Grant Information Circular
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
OMB          Office of Management and Budget
PMS          Payment Management System
U.S.C.       United States Code


                                               REPORT NO. IG-12-016
JUNE 22, 2012




                                                                                     OVERVIEW

                 AUDIT OF NASA GRANTS AWARDED TO THE
              ALABAMA SPACE SCIENCE EXHIBIT COMMISSION’S
                     U.S. SPACE AND ROCKET CENTER

                                                                                       The Issue

  In September 2011, the NASA Office of Inspector General (OIG) reported that NASA
  did not have an adequate system of controls in place to ensure proper administration and
  management of its grant program and that as a result some grant funds were not being
  used for their intended purposes. 1 Moreover, NASA itself has identified and reported in
  one of its 2009 Procurement Management Review reports weaknesses in its grant
  administration process. Among the Agency’s findings was that NASA had used grants
  and cooperative agreements rather than contracts to obtain office space for the use of
  NASA civil service personnel at the Alabama Space Science Exhibit Commission’s U.S.
  Space and Rocket Center (Rocket Center) in Huntsville, Alabama. 2

  The Rocket Center, established with the support of the State of Alabama, tells the story of
  space exploration and provides science-based displays and computer learning facilities
  for visitors, teachers, and students. The Rocket Center is the official visitor information
  center for NASA’s Marshall Space Flight Center (Marshall) and houses Marshall’s
  Education Training Facility. It is also the site of SPACE CAMP®, a program founded in
  1982 to promote the study of math, science, and technology using classroom instruction
  and hands-on activities to teach teamwork, decision-making, and leadership. Between
  July 2005 and September 2009, NASA awarded three grants totaling $5,271,121 to the
  Rocket Center for a variety of purposes, including restoration of the Center’s Saturn V
  rocket exhibit, development of educational exhibits, upgrades to the SPACE CAMP®
  mission simulation program, and an educational workshop. NASA was directed to award
  each of these grants pursuant to the 2005 Consolidated Appropriations Act, the 2006
  Consolidated Appropriations Act, and the 2009 Omnibus Appropriations Act.

  The objective of this audit was to determine whether the Rocket Center used NASA’s
  grant funds as intended and whether the costs associated with the grants were allowable,
  reasonable, and in accordance with applicable laws, regulations, guidelines, and the terms
  and conditions of the grants. Specifically, we reviewed: (1) program performance and


  1
      NASA OIG, “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011).
  2
      The Alabama Space Science Exhibit Commission is an 18-member commission established as an agency
      of the State of Alabama that oversees the operation of the Rocket Center.



REPORT NO. IG-12-016
                                                                                        OVERVIEW



     accomplishments; (2) budget management and control; (3) grant reporting; and
     (4) accounting and internal controls.

     Results

     We found that the Rocket Center properly managed the three grants we reviewed.
     Specifically, the Rocket Center fulfilled the grants’ performance goals, properly managed
     the associated budgets, timely and accurately filed the required financial and performance
     reports, maintained a strong system of accounting and internal controls, appropriately
     requested reimbursement for allowable and reasonable costs, and adequately accounted
     for expenditures. However, we identified two areas of concern related to NASA’s
     administration of the Rocket Center grants:

        •   Grant funds totaling $424,816 were used to maintain office space for the direct
            benefit of NASA civil service personnel contrary to Federal and NASA
            regulations that require contracts be used for such purposes.

        •   The independent auditors who conducted the required Single Audits for the
            Rocket Center reported that the Center’s current liabilities exceeded current assets
            in 2005 through 2010, that the Center suffered operating losses in four of those
            years, and that these conditions created an uncertainty as to the Rocket Center’s
            viability. Although NASA grant officials claimed to have assessed the risks
            associated with the Center’s impaired financial condition, they failed to
            sufficiently document this assessment. More broadly, NASA lacks a standard
            process to assess a potential grantee’s financial condition prior to grant award or
            to impose any additional reporting or oversight requirements that such a condition
            may warrant. Although identification of concerns regarding the financial health
            of potential grantees would not necessarily preclude making awards to them, such
            a process would help reduce the risk associated with such awards.

     Management Action

     NASA needs to strengthen its policies, procedures, and internal controls to ensure that it
     uses contracts, grants, and cooperative agreements in the appropriate circumstances. We
     made the same finding in our September 2011 report on NASA’s overall grant
     management and recommended that the Assistant Administrator for Procurement
     establish internal controls, policies, and procedures to require the independent review and
     approval of all grants and supplements for propriety of choice of instrument prior to
     award. With regard to the financial stability of grantees, we recommended that the
     Assistant Administrator for Procurement assess the feasibility of implementing internal
     controls, policies, and procedures to ensure that the Agency assesses the financial health
     of grant recipients prior to award and imposes additional reporting requirements and
     oversight when warranted.



ii                                                                          REPORT NO. IG-12-016
OVERVIEW



  In response to a draft of our report, the Assistant Administrator for Procurement
  concurred with our recommendation, stating that he recognizes that the financial
  condition of an intended grant or cooperative agreement recipient is an important
  consideration in the award decision. He said that NASA will work closely with the
  Office of Management and Budget (OMB) to assess and evaluate the feasibility and
  effectiveness of proposed reforms recently published in the Federal Register that include
  a requirement that Federal agencies consider a prospective recipient’s financial condition
  prior to awarding a grant or cooperative agreement. We consider the Assistant
  Administrator’s proposed action responsive to our recommendation and will close the
  recommendation upon completion and verification of that action.

  The Agency’s comments in response to a draft of this report are reprinted in Appendix B;
  the grantee’s comments are in Appendix C. The Agency previously provided technical
  comments on the draft, which we incorporated as appropriate.




REPORT NO. IG-12-016                                                                           iii
JUNE 22, 2012




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 2

  RESULTS
      Findings and Recommendations__________________________ 4

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls ____________________________ 18
      Prior Coverage ______________________________________ 18

  APPENDIX B
      Agency Comments ___________________________________ 20

  APPENDIX C
      Grantee Comments __________________________________ 22

  APPENDIX D
      Report Distribution ___________________________________ 23




REPORT NO. IG-12-016
JUNE 22, 2012




                                                                              INTRODUCTION


Background

  NASA awards approximately $500 million in grants annually and faces the ongoing
  challenge of ensuring that these funds are administered appropriately and that grantees
  are accomplishing stated objectives. In September 2011, the NASA Office of Inspector
  General (OIG) reported that NASA did not have an adequate system of controls in place
  to ensure proper administration and management of its grant program and that as a result
  some grant funds were not being used for their intended purposes. 3 Additionally, the
  Agency identified and reported in its 2009 Annual Procurement Management Review
  weaknesses in its grant administration process, including use of grants and cooperative
  agreements rather than contracts to obtain facility space for NASA civil service
  employees at the Alabama Space Science Exhibit Commission’s U.S. Space and Rocket
  Center (Rocket Center). 4

  The Rocket Center, established with the support of the State of Alabama, tells the story of
  space exploration and provides science-based displays and computer learning facilities
  for visitors, teachers, and students. The Rocket Center is the official visitor information
  center for NASA’s Marshall Space Flight Center (Marshall) and houses Marshall’s
  Education Training Facility. It is also the site of SPACE CAMP®, a program founded in
  1982 to promote the study of math, science, and technology using classroom instruction
  and hands-on activities to teach teamwork, decision-making, and leadership. Between
  July 2005 and September 2009, NASA awarded three grants totaling $5,271,121 to the
  Rocket Center for a variety of purposes, including restoration of the Center’s Saturn V
  rocket exhibit, development of educational exhibits, upgrades to the SPACE CAMP®
  mission simulation program, and an educational workshop (see Table 1 for individual
  grant award value). NASA was directed to award each of these grants pursuant to the
  2005 Consolidated Appropriations Act, the 2006 Consolidated Appropriations Act, and
  the 2009 Omnibus Appropriations Act.




  3
      NASA OIG, “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011).
  4
      The Alabama Space Science Exhibit Commission is an 18-member commission established as an agency
      of the State of Alabama that oversees the operation of the Rocket Center.



REPORT NO. IG-12-016                                                                                     1
                                                                                                   INTRODUCTION




                         Table 1. U.S. Space and Rocket Center Grants Reviewed

                                  Number of
           Grant Award           Supplements         Start Date         End Date        Award Amount

          NNM05AA27G                   12            7/11/2005         9/30/2010          $4,428,121
          NNX09AR31G                   0             9/1/2009          8/31/2010             500,000
          NNX09AW17G                   0             9/9/2009          9/08/2010             343,000
                                                                             Total        $5,271,121
    Source: NASA grant award files

    The Rocket Center has two primary missions: to provide a unique learning environment
    designed to enhance science, technology, engineering, and mathematics skills and
    knowledge of space and aeronautics of teachers and students; and, through acquisition
    and display of space and missile artifacts, to be one of the world’s premier space
    museums. Since opening its doors in 1970, the Rocket Center has hosted over 13 million
    visitors. In fiscal year (FY) 2011, more than 500,000 visitors from 59 foreign countries
    toured the Center and 32,052 people attended its SPACE CAMP® programs.

    The NASA Grant and Cooperative Agreement Handbook (Grant Handbook) contains the
    policies and procedures NASA procurement and technical officers and grantees must
    follow in the pre-award, award, post-award, and closeout phases of grant management. 5
    The Grant Handbook serves as a reference manual and assists grantees in meeting their
    fiduciary responsibility to safeguard grant funds and ensure they use the funds
    appropriately and consistently with the terms and conditions of the award. By accepting
    NASA awards, the Rocket Center agreed to comply with the financial and administrative
    requirements set forth in the Grant Handbook.


Objectives

    The overall audit objective was to determine whether the Rocket Center used NASA
    grant funds for their intended purposes and whether the associated expenditures were
    allowable, reasonable, and in accordance with applicable laws, regulations, guidelines,
    and the terms and conditions of the grants. Specifically, we reviewed the Rocket
    Center’s (1) program performance and accomplishments; (2) budget management and
    control; (3) grant reporting; and (4) accounting and internal controls.



    5
        NASA Procedural Requirements (NPR) 5800.1, “Grant and Cooperative Agreement Handbook,” is
        codified in the Code of Federal Regulations (C.F.R.) at Part 1260. NASA issues Grant Information
        Circulars to disseminate guidance internally and issues Grant Notices to publicize regulatory changes not
        yet incorporated in the current version of the Grant Handbook.



2                                                                                         REPORT NO. IG-12-016
INTRODUCTION



  To accomplish our audit, we conducted interviews with representatives from Marshall’s
  Office of Procurement, grant officers, the grant technical officer, and Rocket Center
  officials. We visited the Rocket Center to observe the work completed with the grant
  funds and to document accounting, procurement, and project management processes and
  internal controls. We also reviewed laws, regulations, and other documentation pertinent
  to our review. Additional details of the audit scope and methodology, our review of
  internal controls, and prior audit coverage are in Appendix A.




REPORT NO. IG-12-016                                                                         3
                                                                                             RESULTS




                                                  FINDINGS AND RECOMMENDATIONS

               We determined that the Rocket Center managed the three grants we examined in
               accordance with applicable laws, regulations, guidelines, and the terms and
               conditions of the grants. Specifically, we found that the Rocket Center fulfilled the
               performance goals of the grants, properly managed its grant budgets, timely and
               accurately filed the required financial and performance reports, maintained a strong
               system of accounting and internal controls, appropriately requested reimbursement
               for allowable and reasonable costs incurred, and adequately accounted for
               expenditures. However, we identified two areas in which NASA could improve its
               internal controls and grant oversight. First, NASA used eight grant supplements to
               procure office space for NASA civil service personnel when the appropriate
               procurement vehicle was a contract. Second, NASA lacks a standard process to
               assess a potential grantee’s financial health prior to grant award. Although
               identification of concerns regarding the financial health of potential grantees would
               not necessarily preclude making awards to them, such a process would help reduce
               the risk associated with such awards.


Program Performance and Accomplishment

    The overarching goal of the three grants we reviewed was to improve the Rocket Center’s
    operations and space and technology exhibits. One of the grants was intended for the
    restoration of the Rocket Center’s Saturn V exhibit (see Figure 1), for the purchase of
    equipment, and to support the operations and maintenance of the Center’s Education
    Training Facility. The goal of the second grant was to update the Rocket Center’s
    Mission Center Complex from a focus on NASA’s retiring Space Shuttle Program to the
    Constellation Program then in development and to provide an education workshop on the
    Constellation Program. 6 The goal of the third grant was to design several new exhibits,
    including one displaying a moon rock collected during the Apollo 12 mission.




    6
        The Constellation Program was later canceled.



4                                                                             REPORT NO. IG-12-016
RESULTS



  Figure 1. Saturn V Rocket Exhibit at the Rocket Center in Huntsville, Alabama




  Source: U.S. Space and Rocket Center Photo Gallery


  To determine if the Rocket Center met these objectives, we interviewed Center officials,
  toured the Rocket Center’s museum and training facility, observed the new and upgraded
  exhibits, and reviewed the Rocket Center’s final performance reports. Overall, we
  concluded that the Rocket Center adequately met the goals of all three grants. For
  example, we observed that the Rocket Center used grant funds to repaint, dry, and repair
  its Saturn V exhibit, to remove old Shuttle and International Space Station equipment and
  convert an exhibit on Space Shuttle Discovery to an exhibit on the Orion capsule, and to
  fabricate parts of other new exhibits including one featuring an Apollo 12 moon rock.


Budget Management and Control

  According to the Grant Handbook, the budget plan is the financial expression of the
  project or program as approved during the award process. Although NASA assumes no
  responsibility for budget overruns, recipients may spend grant funds without strict
  adherence to the individual allocations in their approved budgets, except for allocations
  relating to the acquisition of property, awarding of subcontracts, and certain revisions to
  budget and program plans. In addition, NASA may, but is not required to, restrict the
  grantee’s ability to transfer funds among direct cost categories or programs, functions,
  and activities for awards that exceed $100,000 when the cumulative amount of such
  transfers exceeds or is expected to exceed 10 percent of the total NASA-approved budget.

  As we noted in our September 2011 report reviewing NASA’s overall grant management,
  we believe allowing grant recipients such broad discretion to deviate from approved
  budgets increases the risk that they may incur unauthorized or unallowable costs or
  expenditures unrelated to the purpose of the grant. In this audit, we examined the extent


REPORT NO. IG-12-016                                                                            5
                                                                                                  RESULTS



    to which the Rocket Center adhered to the NASA-approved budgets by comparing the
    amounts the Rocket Center expended in each general ledger category to the approved
    budgets.

    We did not identify any instances in which the Rocket Center incurred costs or
    expenditures unrelated to the purpose of the grant or otherwise failed to conform to the
    requirements of the Grant Handbook. However, we noted one instance in which the
    Rocket Center paid personnel expenditures totaling $22,557 that were not included in the
    NASA-approved budget. According to the Executive Director, Rocket Center officials
    charged these costs to the grant because they determined that it was more cost-effective
    to have Rocket Center employees rather than contractors perform some of the exhibit
    work. She also said that at the time the charges were made she had confused this grant
    with another NASA grant that included approved personnel expenses, and therefore had
    not realized that the charges were not part of the approved budget. Because NASA’s
    current guidance allows recipients to spend grant funds without strict adherence to
    individual allocations within their approved budgets, we did not take exception with this
    deviation.

    In our September 2011 report, we recommended that the Assistant Administrator for
    Procurement revise the Grant Handbook to require a minimum threshold for all grantee
    budget deviations (excluding categories already requiring approval) and that technical
    officers approve budget deviations in excess of such threshold prior to the expenditure of
    grant funds. The Assistant Administrator for Procurement concurred with our
    recommendation and proposed corrective action. Accordingly, we are not making a
    recommendation concerning this issue in this report.


Grant Reporting

    The Grant Handbook requires grantees to submit quarterly and final Federal Financial
    Reports, annual and final performance reports, and final inventory reports to NASA. The
    Federal Financial Report shows the grantee’s expenditures and drawdowns for the
    reporting period. 7 Performance reports provide information on the progress of the work
    effort, and inventory reports document NASA-provided equipment and property valued
    at more than $5,000.

    Financial Reports. The Grant Handbook requires grantees to submit quarterly Federal
    Financial Reports within 30 working days after the end of each reporting period. The
    grantee is required to report expenditures and drawdowns online for each calendar quarter
    of the award period. Grantees are also required to submit a final Federal Financial Report
    within 90 days after the award’s completion date.


    7
        The term “drawdown” refers to the action in which the grantee withdraws funds from the U.S.
        Department of Health and Human Services’ Payment Management System, which NASA and other
        Federal agencies use.



6                                                                                  REPORT NO. IG-12-016
RESULTS



  We analyzed the last four quarterly and the final Federal Financial Reports for the three
  grants we reviewed. We found that the Rocket Center submitted all reports timely and
  accurately recorded its general ledger expenditures and drawdown amounts in the
  Reports.

  Performance Reports. The Grant Handbook and the terms of each of the grants we
  reviewed required the Rocket Center to submit annual performance reports to NASA
  60 days prior to the grant anniversary date and a final performance report no later than
  90 days after the grant’s completion.

  Two of the grants had a 1-year period of performance, so only final reports were
  required. In both instances, the Rocket Center submitted timely and accurate final
  reports. The third grant had a 5-year period of performance; therefore, four annual
  performance reports and a final report were required. We found that two of the annual
  reports were submitted 18 and 29 days late, respectively. When we asked the Rocket
  Center’s Executive Director about these reports, she explained that the initial period of
  the grant was 1 year and that the performance period was extended through a series of
  supplements with differing periods of performance. According to the Executive Director,
  this caused some confusion regarding the anniversary dates for reporting purposes, so to
  maintain consistency she submitted the reports each May. Given the complexities
  involved, we believe this was a reasonable approach. We noted no other issues regarding
  the timeliness or content of the performance reports for this grant.

  Inventory Reports. The grant award required final inventory reports be submitted 60
  days after the completion of the award. We found that the grantee adhered to this
  requirement and that the reports were accurate.


Accounting and Internal Controls

  According to the Grant Handbook, grant recipients are required to establish and maintain
  accounting and internal control systems to account for funds awarded to them. We
  reviewed the Rocket Center’s recent Single Audit reports to determine whether they
  reported any material weaknesses in the Rocket Center’s accounting and internal control
  systems that could affect the grants. 8 We also interviewed Rocket Center employees
  responsible for payroll, purchasing, and accounts payable and observed accounting
  activities.

  We found that the Center had qualified and experienced staff responsible for the areas we
  reviewed and that the staff and management openly communicated regarding the Center’s
  mission and goals. We also found that the responsibility for financial duties was properly

  8
      According to OMB Circular A-133, Single Audit reports are required for any grantee that expends more
      than $500,000 in Federal funds in any given year. Single Audits report on financial statements, internal
      controls, and compliance with laws and regulations, and can include the identification of any related
      questioned costs as well as recommendations to the grant recipient for corrective action.



REPORT NO. IG-12-016                                                                                             7
                                                                                                               RESULTS



    segregated among different staff members and that the Rocket Center had formally
    documented its standard operating procedures. Further, our review of Single Audit
    reports did not identify any material instances of noncompliance or other material
    weaknesses. 9

    Financial Management. According to the Grant Handbook, grantees’ financial
    management systems should provide for accurate, current, and complete disclosure of the
    financial results and records that adequately identify the source and application of funds
    for federally sponsored activities. Grantees should also have effective controls over and
    accountability for all funds, property, and other assets and should adequately safeguard
    all such assets and assure they are used solely for authorized purposes. Additionally, the
    grantee should have accounting records supported by source documentation.

    In March 2010, the Rocket Center transitioned to a new accounting system. Although the
    majority of the transactions for the grants we reviewed were maintained in its prior
    accounting system, we were able to verify and trace the audit trail to the related invoices,
    purchase requisitions, purchase orders, shipping and receiving documents, and bills of
    lading, demonstrating both systems’ ability to track expenditures and revenues
    appropriately. In addition, the Rocket Center maintained general ledger reports to track
    the actual program expenditures chargeable to the grant. The detailed documents
    supporting the general ledger transactions included employee time records as well as
    information about other grant-related expenses, such as invoices from contractors,
    receiving documents, purchase requisitions, and purchase orders. We were able to
    compare information shown on the general ledger to the totals calculated from the
    supporting documentation and determine that the general ledger accurately reflected the
    Rocket Center’s expenditures. We did not identify any reportable conditions during our
    testing of this area.

    Grant Drawdowns. The Grant Handbook establishes procedures for NASA to make
    payments to grantees. These procedures are designed to minimize the elapsed time
    between the transfer of funds to the grantee and disbursement of funds by the grantee.
    Accordingly, grantees can receive advance payment for imminent expenditures or can
    pay the expenses related to the grant and then draw down the funds necessary to
    reimburse itself for these expenditures. Grantees should draw down the minimum funds
    needed to cover expenses as incurred and must invest any funds that exceed expenses in
    an interest bearing account, remitting any interest above $250 to the U.S. Department of
    Health and Human Services’ Payment Management System (PMS) for ultimate return to
    the Treasury.

    For the three grants we reviewed, NASA disbursed a total of $5,271,121. We compared
    drawdowns to grant expenditures and found that the Rocket Center based its drawdowns
    on the expenditures in its general ledger, did not have excess cash on hand, and made

    9
        As discussed in more detail later in this report, the Single Audit reports did raise an issue concerning the
        financial viability of the Rocket Center.



8                                                                                            REPORT NO. IG-12-016
RESULTS



  drawdowns in accordance with the Grant Handbook. Table 2 shows the number and
  amount of drawdowns from the PMS the Center made for each grant.

                       Table 2. U.S. Space and Rocket Center Drawdowns

                              Amount of          Grant Expenditures     Reimbursements in
                              Drawdown                 per the               Excess of
      Grant Award              per PMS             General Ledger          Expenditures
      NNM05AA27G              $4,172,505                $4,172,505             0
                                   10,720                      10,720          0
                                  105,096                     105,096          0
                                    2,675                       2,675          0
                                   61,837                      61,837          0
                                   75,288                      75,288          0
            Grant Total       $4,428,121                $4,428,121

      NNX09AR31G                $156,976                     $156,976          0
                                  209,024                     209,024          0
                                  134,000                     134,000          0
            Grant Total         $500,000                     $500,000

      NNX09AW17G                 $ 15,013                    $ 15,013          0
                                    8,942                       8,942          0
                                   11,022                      11,022          0
                                   13,240                      13,240          0
                                  115,200                     115,200          0
                                  115,200                     115,200          0
                                   12,000                      12,000          0
                                   52,383                      52,383          0
            Grant Total         $343,000                     $343,000
  Source: PMS reports and the Rocket Center general ledger

  Grant Expenditures. To determine the accuracy and allowability of costs charged to the
  grants, we reviewed a sample of the Rocket Center’s expenditures, including exhibit
  supplies, construction costs, consultant costs, and contractor expenses. We also
  examined the personnel costs charged to each grant. In total, we reviewed $2,582,756 in
  grant transactions, or 49 percent of the total amount expended.



REPORT NO. IG-12-016                                                                        9
                                                                                           RESULTS



            Personnel Expenditures. Personnel costs represented the smallest category of
     expenditures by the Rocket Center: a total of $22,557 for the salaries and fringe benefits
     of employees who worked on grant NNX09AW17G. The other two grants had no
     associated personnel expenditures.

             We reviewed the time and payroll records associated with the $22,557
     expenditure. While we found the expenditures to be accurately recorded, properly
     allocated, and adequately supported, as discussed above, they were not authorized per the
     approved grant budget, which contained only two categories: contractual costs and costs
     for an informal educator workshop. However, as previously noted, because grantees may
     deviate from their proposed budgets without approval from NASA except when the
     change involves property or subcontract-related costs, the Rocket Center was not required
     to seek NASA’s permission to pay these personnel costs.

             Non-Personnel Expenditures. We reviewed 114 non-personnel transactions
     totaling $2,560,199, or 49 percent of total expenditures for the three grants. These
     transactions consisted of payments for items such as supplies, travel, and contractor
     expenses. We compared the transactions to the NASA-approved budgets and traced the
     transactions to supporting documentation. We determined that the expenditures were
     properly authorized, classified, supported, and charged to the grants and accurately
     recorded in the Rocket Center’s general ledger. We also found that the Rocket Center
     has established policies and procedures relating to the selection and monitoring of
     contractors. From our review of contract transactions, we found that the Rocket Center
     performed due diligence in selecting contractors, reviewing the debarment list, handling
     bids and proposals, and ensuring that the required certifications for liability issuance,
     drug-free work place, and equal employment opportunity were obtained.

             Inappropriate Use of Award Instrument. While performing expenditure
     testing, we found that select transactions were for the support and operation of the Rocket
     Center’s Education Training Facility. Upon further review, we learned that grant officers
     at Marshall awarded eight grant supplements to the Rocket Center totaling $424,816 to
     obtain space in the Education Training Facility for NASA’s direct use and benefit. As
     previously noted, the Agency’s own internal review also noted this issue.

             The Education Training Facility is a two-story building adjacent to the Rocket
     Center. The first floor, referred to as the Education Resource Center, contains an
     auditorium, science lab, classroom, and dining area dedicated to Rocket Center use. The
     NASA Academic Affairs Office occupies the second floor of the Center as well as
     approximately 4,266 square feet of space on the first floor, which it uses to support
     NASA’s off-site training and development activities. Although the rooms on the second
     floor are available for public use on a case-by-case basis, NASA has priority and NASA
     personnel are the principal users of the space.

            Under Federal law, agencies are required to use a contract when “the principal
     purpose of the instrument is to acquire (by purchase, lease, or barter) property or services



10                                                                           REPORT NO. IG-12-016
RESULTS



  for the direct benefit or use of the United States Government.” 10 In contrast, a grant is
  the proper instrument when the principal purpose of the relationship is to carry out a
  public purpose of support or stimulation authorized by law. In our September 2011
  report, we found that NASA did not have adequate controls established to independently
  validate its choice of award instrument and recommended that the Assistant
  Administrator for Procurement establish a formal, recurring training program for grant
  officers and technical officers that addresses choice of award instrument.

          When we asked Marshall officials why they used a grant to acquire space in this
  particular case, they could not articulate a specific reason, but agreed that the use of a
  grant for this purpose was inappropriate and said they will not use grants for this purpose
  in the future. We confirmed that Marshall has corrected the situation at the Rocket
  Center by awarding a contract for this specific purpose on October 1, 2010. In addition,
  NASA’s Assistant Administrator for Procurement agreed with and is taking corrective
  action to address our previous recommendation to institute additional training.
  Accordingly, we are not making a recommendation regarding this issue in this report.

  Single Audit. According to Office of Management and Budget (OMB) Circular
  No. A-133, “Audits of States, Local Governments and Non-Profit Organizations,”
  June 26, 2007, recipients of Federal funds are required to have a Single Audit performed
  annually if they expend more than $500,000 in Federal funds in any given year. The
  Circular states that the audit shall be submitted to the Federal Audit Clearinghouse within
  30 days of completion or 9 months after the end of the audit period, whichever is
  earlier. 11

  We reviewed the Single Audit reports for the Rocket Center for FYs 2005 through 2010
  and found they were timely completed and submitted. The reports stated that the Rocket
  Center complied with the requirements of the laws, regulations, contracts, and grants that
  were applicable to each of its major Federal programs and identified no material internal
  control deficiencies. However, the notes to the corresponding financial statements
  identified an uncertainty concerning the Rocket Center’s ability to continue as a “going
  concern.” 12 Specifically, the independent auditors reported that the Center’s current
  liabilities exceeded its current assets in FYs 2005 through 2010 and that the Center
  suffered operating losses during four of those years. The independent auditors noted that
  these conditions created an uncertainty as to the Rocket Center’s viability.

          Consideration of Grantees’ Financial Health. NASA does not have a process
  in place to assess a potential grantee’s financial health prior to making a grant award.

  10
       31 U.S.C. 6303.
  11
       The Federal Audit Clearinghouse operates on behalf of OMB and its primary purposes are to disseminate
       audit information, support OMB oversight and assessment of Federal award audit requirements, assist
       Federal oversight agencies in obtaining A-133 data, and help minimize the reporting burden of
       complying with A-133 audit requirements.
  12
       “Going concern” is a term used to describe a company that has the resources needed in order to continue
       to operate indefinitely. If a company is not a going concern, it means the company has gone bankrupt.



REPORT NO. IG-12-016                                                                                             11
                                                                                           RESULTS



     Although concerns regarding the financial health of a potential grantee would not
     necessarily preclude making an award, a standardized process would help reduce the risk
     associated with such awards. For example, NASA could impose additional reporting
     requirements or enhance its oversight efforts if it has concerns about a grantee’s financial
     health.

             The technical officer responsible for the Rocket Center grants told us that NASA
     was aware of the Center’s financial condition and that before making the FY 2009 award,
     she conducted a financial health review with the assistance of the NASA Office of
     Legislative Affairs, the Chief Financial Officer, and the Office of Procurement. She said
     that based on this assessment she concluded that the Rocket Center would be able to
     execute the 2009 award without issue. She also said that she provided a grant status
     report to the Chief Financial Officer on a weekly basis.

            However, we found no documentation in the grant files of such a review and the
     documentation provided to us as support for the review did not pertain to assessing the
     Center’s financial health. For example, the technical officer provided us with the Office
     of Education’s Proposed Evaluation Criteria, none of which address this issue. Further,
     no additional requirements were imposed on the Center in an attempt to mitigate the risk
     posed by its impaired financial condition.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

We recommended that the NASA Assistant Administrator for Procurement assess the
feasibility of implementing internal controls, policies, and procedures to ensure that grant
officers consider the financial condition of intended grant recipients prior to award and that
additional reporting requirements are imposed and/or enhanced oversight efforts undertaken
in appropriate circumstances.

     Management’s Response. The Assistant Administrator for Procurement concurred,
     stating that he recognizes that the financial condition of an intended grant or cooperative
     agreement recipient is an important consideration in the award decision, particularly at
     increased dollar levels. He said that NASA will work closely with OMB to assess and
     evaluate the feasibility and effectiveness of proposed reforms recently published in the
     Federal Register that include a requirement that Federal agencies consider a prospective
     recipient’s financial condition prior to awarding a grant or cooperative agreement and
     will implement the final guidance.

     Evaluation of Management’s Response. Management’s proposed action to work with
     OMB to evaluate the feasibility of implementing a rule that considers a prospective
     recipient’s financial condition prior to the award of a grant or cooperative agreement and
     to implement the resulting guidance is responsive to our recommendation. Therefore, the




12                                                                           REPORT NO. IG-12-016
RESULTS



  recommendation is resolved and will be closed upon completion and verification of the
  proposed actions.




REPORT NO. IG-12-016                                                                      13
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from October 2011 through May 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Our overall audit objective was to determine whether NASA’s grant funds were used for
  their intended purposes and whether the Agency was compliant with established laws,
  regulations, and NASA-specific requirements in its administration and management of
  the grants. We interviewed key personnel at the NASA Shared Services Center, Marshall
  Space Flight Center (Marshall), and the Alabama Space Science Exhibit Commission’s
  U.S. Space and Rocket Center (Rocket Center) involved in grant administration,
  management, and award processes. We identified and reviewed relevant Federal laws
  and regulations; NASA policies, procedures, plans, and requirements; and other criteria
  (a detailed list of items reviewed is provided on the following pages). The methodology
  we followed for the review is described below.

  Grant Selection. We judgmentally selected three grants awarded to the Rocket Center
  for review based on weaknesses reported in the Agency’s grant administration process in
  one of its Annual Procurement Management Review reports. All three grants selected for
  review were congressional earmark grants awarded by Marshall and the NASA Shared
  Services Center.

  Grant Award File Documentation. We reviewed grant award documentation, including
  technical and peer review reports, budget proposals, and summary financial reporting
  documentation. We interviewed NASA grant officers as well as the technical officer
  responsible for the grants examined during the audit.

  Grantee Site Visits. We visited the grantee’s location in Huntsville, Alabama, including
  the museum where the exhibits are maintained and the Rocket Center’s Education
  Training Facility. We interviewed grantee officials, performed substantive transaction
  testing necessary to validate whether NASA grant funds were used for their intended
  purposes, and assessed the sufficiency of grantee performance.

  Testing Conducted. We tested compliance with what we consider the most important
  conditions of the grant. Unless otherwise stated in our report, the criteria we audited
  against are contained in the NASA Grant Handbook and other related NASA policy and
  guidance, grant award documents, and relevant OMB Circulars and Federal regulations.


REPORT NO. IG-12-016                                                                          15
                                                                                       APPENDIX A



     In conducting our audit, we employed a judgmental sampling design to obtain broad
     exposure to numerous facets of the grant reviewed, such as dollar amounts or expenditure
     category. This nonstatistical sample design does not allow projection of the test results to
     the universe from which the samples were selected. Further, we tested the Rocket
     Center’s:

        •   Program Performance and Accomplishments to determine whether the grantee
            met or is capable of meeting the grant objectives and whether the grantee
            collected data and developed performance measures to assess accomplishment of
            the intended objectives.

        •   Budget Management and Control to determine the amounts budgeted and the
            actual costs for each approved cost category and to determine if the grantee
            deviated from the approved budget, and if so, if the grantee received the necessary
            approval.

        •   Grant Reporting to determine if the required reports were submitted on time and
            accurately reflected grant activity.

        •   Accounting and Internal Controls to determine whether the grantee had
            sufficient accounting and internal controls to identify and report expenditures and
            reimbursements. This included testing:

                o Grant Drawdowns to determine whether grant drawdowns were
                  adequately supported and if the grantee was managing grant receipts in
                  accordance with federal requirements; and

                o Grant Expenditures to determine the accuracy and allowability of costs
                  charged to the grant.

     Federal Laws, Regulations, Policies, and Requirements. We identified and reviewed
     the following criteria as applicable to our audit objectives:

     Code of Federal Regulations (C.F.R.), Title 2, Part 215, “Uniform Administrative
     Requirements for Grants and Agreements with Institutions of Higher Education,
     Hospitals, and Other Non-Profit Organizations (OMB Circular A-110),” May 11, 2004

     2 C.F.R. Part 230, “Cost Principles for Non-Profit Organizations (OMB Circular
     A-122),” August 31, 2005

     14 C.F.R. Part 1260, “Grants and Cooperative Agreements,” Subpart A, October 19,
     2000

     14 C.F.R. Part 1260, Subpart B, “Uniform Administrative Requirements for Grants and
     Cooperative Agreements with Institutions of Higher Education, Hospitals, and Other
     Non-Profit Organizations,” October 19, 2000


16                                                                          REPORT NO. IG-12-016
APPENDIX A
   REPORT

  Title 31, United States Code, Chapter 63 (31 U.S.C. 63), “Using Procurement Contracts
  and Grant and Cooperative Agreements,” January 7, 2011

  OMB Circular A-133, “Audits of States, Local Governments, and Non-Profit
  Organizations,” June 26, 2007

  NASA Policy Directive (NPD) 1200.1E, “NASA Internal Control,” July 21, 2008

  NASA Procedural Requirements (NPR) 5800.1, “Grant and Cooperative Agreement
  Handbook,” Section A, June 13, 2008, and Section B, April 20, 2007

  NPR 9010.3, “Financial Management Internal Control,” September 30, 2008

  NPR 9680.1, “NASA’s Management of Grants and Cooperative Agreements,”
  October 31, 2008

  Grant Information Circular (GIC) 05-03, “Additional Guidance Related to the Processing
  of Unsolicited Proposals, Successor Proposals and Congressional Interest Items
  (Earmarks),” April 7, 2005

  GIC 06-01, “Additional Guidance Related to the Processing of Congressional Interest
  Items (Earmarks),” April 12, 2006

  GIC 08-01, “Ensuring Only Allowable, Reasonable, and Necessary Costs in the Award of
  Grants and Cooperative Agreements,” February 14, 2008

  GIC 09-02, “Guidance On Processing Congressionally Directed Items (Earmarks) for
  Fiscal Year (FY) 2009,” July 23, 2009

  GIC 09-04, “Substitution of Standard Form (SF) 425 for Standard Form (SF) 272: Class
  Deviation from the Requirements at CFR 1260.26 and Exhibits D & G of 14 CFR
  Part 1260,” October 27, 2009

  GIC 11-01, “Implementation of the Federal Funding Accountability and Transparency
  Act (FFATA) of 2006,” January 24, 2011

  GIC 11-02, “Requirements for Non-Competitive Agency Grant and Cooperative
  Agreement Actions, Exclusive of those Actions Prescribed by 14 C.F.R. 1260.17,
  Evaluation and Selection of Unsolicited Proposals,” May 24, 2011

  Use of Computer-Processed Data. We relied on NASA computer-processed data to
  determine the NASA grants universe and to provide financial data. While we obtained
  grant drawdown data and the Federal Financial Reports used during the audit from the
  Department of Health and Human Services’ Payment Management System (PMS), we
  did not perform any substantive testing of the PMS system to validate the completeness
  or accuracy of the data. As a result, we placed limited reliance on the accuracy of the
  data obtained from the PMS System. Further, we also placed limited reliance on the


REPORT NO. IG-12-016                                                                        17
                                                                                        APPENDIX A



     information obtained from the grantee’s financial system to perform detailed transaction
     testing on the grantee’s financial records.


Review of Internal Controls

     We reviewed internal controls for the grantee’s administration and management of
     NASA grants, including policies and procedures. We also reviewed NASA’s oversight
     and monitoring of the grantee. The control weaknesses we identified are discussed in this
     report. Our recommendations in both this report and our September 2011 report, when
     implemented, should correct the identified control weaknesses.


Prior Coverage

     During the last 5 years, NASA and the GAO have issued the following reports and
     testimony that are of particular relevance to the subject of this report. Unrestricted
     reports can be accessed over the Internet at http://oig.nasa.gov/audits/reports/FY12/
     (NASA OIG) and http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011)

     “Audit of NASA’s Recovery Act Procurement Actions at Johnson Space Center,
     Goddard Space Flight Center, Langley Research Center, and Ames Research Center”
     (IG-10-017, July 27, 2010)

     “Final Memorandum on Audit of NASA Education and Training Grants” (IG-07-029-R,
     September 18, 2007)

     “Audit of NASA’s Management and Funding of Fiscal Year 2006 Congressional
     Earmarks” (IG-07-028, August 9, 2007)

     Government Accountability Office

     “Federal Grants – Improvements Needed in Oversight and Accountability Processes”
     (GAO-11-773T, June 23, 2011)

     “Opportunities to Reduce Potential Duplication in Government Programs, Save Tax
     Dollars, and Enhance Revenue” (GAO-11-318SP, March 2011)

     “Grants Management – Attention Needed to Address Undisbursed Balances in Expired
     Grant Accounts” (GAO-08-432, August 2008)




18                                                                           REPORT NO. IG-12-016
APPENDIX A
   REPORT

  “Grants Management – Grantees’ Concerns with Efforts to Streamline and Simplify
  Processes” (GAO-06-566, July 2006)




REPORT NO. IG-12-016                                                                19
                  APPENDIX B




     AGENCY COMMENTS




20       REPORT NO. IG-12-016
APPENDIX B




REPORT NO. IG-12-016   21
                   APPENDIX C




     GRANTEE COMMENTS




22        REPORT NO. IG-12-016
APPENDIX D




                                                    REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Associate Administrator for Education
  Assistant Administrator for Procurement
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  Director, Marshall Space Flight Center
  Executive Director, NASA Shared Services Center

Non-NASA Organizations and Individuals

  Executive Director, Alabama Space Science Exhibit Commission
  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Office of Financial Management and Assurance
     Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Organization, Efficiency, and Financial Management
  House Committee on Science, Space, and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-12-016                                                                 23
Major Contributors to the Report:
   Laura Nicolosi, Director, Mission Support Directorate
   Joseph Shook, Project Manager
   Daniel Birnbaum, Lead Auditor
   Lynette Westfall, Senior Auditor
   Annette Huffman, Program Assistant
   Frank Mazurek, Associate Counsel, Office of Inspector General




REPORT NO. IG-12-016                                               25
                                                                                         JUNE 22, 2012
                                                                        REPORT No. IG-12-016




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
